C'OCKLE

2311 Douglas Street CA ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pve fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

EAST CLEVELAND et al.,
Petitioners,
v.
ARNOLD BLACK,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8139 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & 2 Z é
RENEE J. GOSS 9. ¢ eter ‘.
Notary Public

‘My Comm. Exp. September 5, 2023

 

Affiant 40838
